<html>
<title> - BUSINESS MEETING</title>
<body><pre>[Senate Hearing 115-596]
[From the U.S. Government Publishing Office]


                                                        S. Hrg. 115-596

                            BUSINESS MEETING

=======================================================================

                                MEETING

                               BEFORE THE

                              COMMITTEE ON
                      ENVIRONMENT AND PUBLIC WORKS
                          UNITED STATES SENATE

                     ONE HUNDRED FIFTEENTH CONGRESS

                             SECOND SESSION

                               __________

                             AUGUST 1, 2018

                               __________

  Printed for the use of the Committee on Environment and Public Works

[GRAPHIC NOT AVAILABLE IN TIFF FORMAT]



        Available via the World Wide Web: http://www.govinfo.gov
               
                               __________
                               

                    U.S. GOVERNMENT PUBLISHING OFFICE                    
36-173PDF                  WASHINGTON : 2019                     
          
--------------------------------------------------------------------------------------
For sale by the Superintendent of Documents, U.S. Government Publishing Office, 
http://bookstore.gpo.gov. For more information, contact the GPO Customer Contact Center,
U.S. Government Publishing Office. Phone 202-512-1800, or 866-512-1800 (toll-free).
E-mail, <a href="/cdn-cgi/l/email-protection" class="__cf_email__" data-cfemail="deaeb19ebdabadaab6bbb2aef0bdb1b3f0">[email&#160;protected]</a>                         
               
               
               
               
               
               
               
               
               
               COMMITTEE ON ENVIRONMENT AND PUBLIC WORKS

                     ONE HUNDRED FIFTEENTH CONGRESS
                             SECOND SESSION

                    JOHN BARRASSO, Wyoming, Chairman
JAMES M. INHOFE, Oklahoma            THOMAS R. CARPER, Delaware, 
SHELLEY MOORE CAPITO, West Virginia      Ranking Member
JOHN BOOZMAN, Arkansas               BENJAMIN L. CARDIN, Maryland
ROGER WICKER, Mississippi            BERNARD SANDERS, Vermont
DEB FISCHER, Nebraska                SHELDON WHITEHOUSE, Rhode Island
JERRY MORAN, Kansas                  JEFF MERKLEY, Oregon
MIKE ROUNDS, South Dakota            KIRSTEN GILLIBRAND, New York
JONI ERNST, Iowa                     CORY A. BOOKER, New Jersey
DAN SULLIVAN, Alaska                 EDWARD J. MARKEY, Massachusetts
RICHARD SHELBY, Alabama              TAMMY DUCKWORTH, Illinois
                                     CHRIS VAN HOLLEN, Maryland

              Richard M. Russell, Majority Staff Director
              Mary Frances Repko, Minority Staff Director
                            
                            
                            
                            C O N T E N T S

                              ----------                              
                                                                   Page

                             AUGUST 1, 2018
                           OPENING STATEMENTS

Barrasso, Hon. John, U.S. Senator from the State of Wyoming......     1
Carper, Hon. Thomas R., U.S. Senator from the State of Delaware..     2

                          ADDITIONAL MATERIAL

H.R. 5572........................................................    13
S. 3021..........................................................    15
Nomination Reference and Report Receipt for Peter C. Wright, to 
  be Assistant Administrator, Office of Solid Waste, 
  Environmental Protection Agency, vice Mathy Stanislaus.........    17
Nomination Reference and Report Receipt for William Charles 
  McIntosh, to be an Assistant Administrator of the Environmental 
  Protection Agency, vice Michelle DePass, resigned..............    20
Nomination Reference and Report Receipt for Mary Bridget Neumayr, 
  to be a Member of the Council on Environmental Quality, vice 
  nancy Helen Sutley.............................................    23
Nomination Reference and Report Receipt for John Fleming, of 
  Louisiana, to be Assistant Secretary of Commerce for Economic 
  Development, vice Roy K.J. Williams............................    26
Construction, U.S. Land Port of Entry, Alexandria Bay, NY........    29
Alteration, John W. McCormack, U.S. Post Office and Courthouse, 
  Boston, MA.....................................................    30
Lease, Social Security Administration, Baltimore County, MD......    31
Alteration, Jacob K. Javits Federal Building, New York, NY.......    33
Lease, Department of Treasury - Internal Revenue Service, 
  Plantation, FL.................................................    34
Lease, Department of Justice, Federal Bureau of Investigation, 
  Seattle, WA....................................................    36
Letters of Support for Nominations............................... 38-55

 
                            BUSINESS MEETING

                              ----------                              


                       WEDNESDAY, AUGUST 1, 2018

                                       U.S. Senate,
                 Committee on Environment and Public Works,
                                                    Washington, DC.
    The committee met, pursuant to notice, at 9:52 a.m. in room 
406, Dirksen Senate Office Building, Hon. John Barrasso 
(chairman of the committee) presiding.
    Present: Senators Barrasso, Carper, Inhofe, Capito, 
Boozman, Wicker, Fischer, Moran, Rounds, Ernst, Sullivan, 
Cardin, Whitehouse, Merkley, Gillibrand, Booker, Markey, and 
Van Hollen.

           OPENING STATEMENT OF HON. JOHN BARRASSO, 
             U.S. SENATOR FROM THE STATE OF WYOMING

    Senator Barrasso. I would like to bring this meeting to 
order. I want to inform the audience that this is a formal 
Senate business meeting, followed by a hearing. In order to 
allow the committee to conduct its business, we will maintain 
decorum. That means if there is any disorder or demonstration 
by a member of the audience, the person causing the disruption 
will be escorted from the room by the Capitol Police, who are 
currently in the room.
    This morning, I call this business meeting to order. Today 
we will be considering four nominees. President Trump has 
nominated Mary Bridget Neumayr to be a Member of the Council on 
Environmental Quality, whom he will designate as Chair upon 
confirmation; William ``Chad'' McIntosh to lead the EPA's 
Office of International and Tribal Affairs; Peter Wright to 
lead the EPA's Office of Land and Emergency Management; and 
John Fleming to lead the Economic Development Administration as 
Assistant Secretary of Commerce for Economic Development. These 
nominees are all well qualified and will bring a wealth of 
experience and expertise to their jobs.
    This confirmation will fill critically important roles in 
ensuring that all Americans benefit from clean air, clean 
water, clean land and a growing economy. I urge all my 
colleagues to support the nominations.
    We will also consider two bills to name Federal 
courthouses. H.R. 5772, to name a Federal courthouse in 
Amarillo, Texas, after Mary Lou Robinson, who served as a judge 
in Texas, and on the U.S. District Court in the Northern 
District of Texas. And S. 3021, to name a Federal courthouse in 
Minneapolis, Minnesota, after Diana Murphy, the first woman 
appointed to the bench of the U.S. Circuit Court of Appeals for 
the Eighth Circuit.
    The committee will also consider six resolutions to approve 
prospectus providing General Service Administration leases. The 
leases will provide office space for the Federal Bureau of 
Investigation, the Internal Revenue Service, the Social 
Security Administration and other agencies.
    After Ranking Member Carper gives his statement, other 
members may make remarks. At 10:15, we will proceed to the 
items in our agenda, provided we have a reporting quorum. After 
we have completed the business portion of the meeting, we will 
immediately begin the hearing with EPA Acting Andrew Wheeler on 
Examining EPA's Agenda, Protecting the Environment and Allowing 
America's Economy to Grow.
    I will now turn to the Ranking Member for his statement. 
Senator Carper.

           OPENING STATEMENT OF HON. THOMAS CARPER, 
            U.S. SENATOR FROM THE STATE OF DELAWARE

    Senator Carper. Thank you, Mr. Chairman. Good morning, one 
and all. I want to thank you for holding this business meeting 
today. It is going to be kind of a convoluted today for us, at 
least this morning is going to be busy. We will need the help 
of everybody, including the audience, to make sure we get 
through this.
    We have a relatively brief but important agenda. Once we 
complete the markup, we look forward to hearing from the Acting 
Administrator of EPA, Andrew Wheeler.
    Today we are considering six GSA prospectuses. Some of them 
are very time-sensitive, which is why we have agreed to 
proceed. However, GSA still has not answered our questions 
about the status of the FBI headquarters, which is very 
important to some of our colleagues, or provided complete 
responses to requests for information on the Trump hotel lease. 
I continue to urge GSA to work with our committee as we fulfill 
our oversight responsibilities.
    We also have two courthouse naming bills before us today, 
which comply with our committee's rules. They are not 
controversial.
    We are also considering a number of nominations. The first 
nominee we are voting on today is Mary Neumayr, who has been 
nominated to lead the Council on Environmental Quality. 
Compared to the last Trump CEQ chair nominee, Ms. Neumayr is a 
welcome improvement. However, to be honest with everybody, 
while I was encouraged, maybe you were too, very encouraged by 
many of her answers during the hearing last month, I am 
troubled by a number of her answers to our questions for the 
record in the days following that hearing, creating some 
reservations about supporting her nomination today.
    I will just give you a couple quick answers. Ms. Neumayr, 
under her leadership CEQ has signaled an intent to consider 
significant revisions to the way the National Environmental 
Policy Act, NEPA, operates. From her answers to questions from 
the record, it is unclear whether such revisions will provide 
or prioritize environmental protection, as is the requirement 
under current law, or if there will be a rigorous public 
comment process before any changes are made.
    As I stated in a letter to Ms. Neumayr just last month, the 
risk of limiting public involvement is particularly concerning, 
given the fact that the very intent of NEPA is to ensure that 
the Federal Government hears from the public. In addition, Ms. 
Neumayr refused to support the reinstatement of tools that help 
American communities become more resilient to extreme weather 
and climate changes. Without extra planning and targeted 
investments, I know we will continue to lose lives, livelihood, 
and taxpayer dollars.
    For those reasons, I will refrain from supporting her 
nomination at this time, although I hope we can have some 
further discussion to come to some resolution on some of the 
issues I have mentioned and perhaps a couple of other important 
issues in the weeks to come.
    The second nomination we are considering today is Chad 
McIntosh to lead EPA's Office of International and Tribal 
Government Affairs. This position serves as a liaison between 
international and tribal communities and the EPA. American 
Indian and Alaska Native communities across the U.S. face 
unique challenges, as we know, in many of the States 
represented right here on our committee. I am concerned that 
Mr. McIntosh has had minimal interactions with tribal 
communities and limited international experience.
    Next, a couple of words about Peter Wright, who has been 
nominated to serve as EPA Assistant Administrator leading the 
Office of Land and Emergency Management. The Office is 
responsible, as you know, for helping States manage our 
Nation's waste, cleanup contaminated sites, and respond to 
national and environmental disasters.
    Mr. Wright has spent much of his career at Dow, where he 
worked on the company's Superfund sites. As I noted during his 
confirmation hearing, Mr. Wright agreed to recuse himself from 
working on any sites for which Dow Dupont may have liability. 
And I commended him at that time for doing so.
    However, his recusals were all contingent upon Senate 
confirmation. And since his hearing in June, Mr. Wright has 
joined EPA as a special counsel. It is unclear what, if any, 
recusal or ethics agreement he is currently abiding by. This 
fact, along with many troubling responses to the questions, 
again, I am troubled by what we hear at the hearing and then 
read in the responses to the questions. They just don't line 
up. They just don't line up in too many instances, including in 
this instance.
    And we need to sort that out. What do we believe? What we 
hear with our own ears? What we hear in or meetings? Or what we 
hear in the responses to our questions for the record?
    But we note that, along with other members of the 
committee, I have sent letters to Mr. Wright and Mr. McIntosh, 
asking them for additional information, and they have yet to 
respond. I also note that of the 60 oversight letters that 
members of this committee have sent to EPA, 60, we have still 
received complete answers to only 24. We did get one last week. 
And we are encouraged by that. But there's about 35 more that 
we haven't.
    The final nominee we are considering today is Dr. John 
Fleming to guide the Economic Development Administration. I am 
just going to call an audible here. My staff, being real honest 
with you, Mr. Chairman, my staff introduced us, I thought no on 
this nomination. I am going to vote yes to report him out. And 
on one hand, here's a fellow, in the House of Representatives 
voted not once but twice to basically get rid of the Economic 
Development Administration. He's been nominated to head up an 
organization, EDA, which the current Administration has 
proposed to de-fund and to eliminate. De-fund twice, and to 
eliminate it in a reorganization plan.
    Now, I may be mistaken about the reorganization plan, but I 
know that it was proposed twice in Budget to de-fund the 
organization. And we heard Dr. Fleming say here, I voted the 
way I did, I was maybe not well informed, and I'm not 
interested in getting rid of the EDA, after he's been nominated 
to head. But if you look at the responses to our QFRs, 
questions for the record, it is not all that clear. He clearly 
supports the President's budget, which calls for zeroing out 
funding for this organization that he is going to be confirmed 
to head. That just causes me some trouble.
    Every now and then we have a chance to, however, to vote 
our hopes over our fears. And today I'm going to vote my hopes 
over my fears. But if we don't get some real clarification on 
this issue, I won't be voting this way when this nomination 
comes before the full Senate.
    So I'm glad we're all here, I look forward to a productive 
day. Thank you.
    Senator Barrasso. Thank you very much, Senator Carper. I 
want to tell you that I absolutely agree with members of this 
committee that we do deserve timely responses to the questions 
that you've raised, and that Senator Cardin has been providing 
significant leadership in making sure we get these answers 
regarding the FBI headquarters project.
    Last night, finally, GSA submitted to the committee their 
answers to the questions for the record, way beyond the time 
they were due. I still haven't had a chance to review them, 
just got these last night, because I knew we were hearing 
today, and they'd be hearing from us. We are still waiting on 
responses from the FBI.
    Accordingly, I have sent a letter to the FBI requesting 
expedited delivery of these past-due answers to the members' 
questions. And Senator Cardin, I would like to call on you.
    Senator Cardin. Thank you, Mr. Chairman. I very much 
appreciate your leadership on the FBI issue.
    I point out that we do have an FBI lease that is on the 
agenda today from GSA, which I intend to support. The FBI needs 
additional leased space. Part of that reason is the inadequacy 
of the FBI facility in Washington.
    I just really want to followup. We had, I thought, a very 
informative hearing on this issue. There were some conclusions 
that were reached at that hearing, one, there was 
acknowledgment of the extreme waste of government funds in the 
process that has been used. No one disputes that, hundreds of 
millions have been wasted in the process that has been used. 
Second, there is no question that the FBI needs additional 
space, and more modern space. That is absolutely without 
question.
    Third, there is no dispute that the security needs that the 
FBI wants, the level of security that they want, cannot be 
achieved at the D.C. location. That is the reason why, many 
years ago, we started with finding a new location, a suburban 
location. Sites were selected in Virginia and Maryland. And we 
went almost to the finish line on selection before the 
Administration withdrew the prospectus and the proposals.
    Not only did the government waste a lot of money, but 
contractors who were operating in good faith lost tens of 
millions of dollars.
    We had the hearing, Mr. Chairman, and I appreciate that 
very much. Reports this week confirm that the President himself 
has been involved in this decision. I say that with two 
concerns in mind. First, during our hearing, that was denied by 
the witnesses. And yet, we know now that the President has a 
direct interest in this facility. It has been confirmed by a 
press report that he informed members of the U.S. Senate of his 
interest in the downtown location. And again, that was denied 
in the hearing before us.
    Second, the President's concerns have been specifically 
expressed that he doesn't like the way the building looks, and 
is clearly more concerned about the appearance of the building 
than the usefulness of the building from the point of view of 
the FBI's mission. That's also clear by the press accounts that 
have been given of late.
    So I say all that, recognizing of course that the President 
has multiple interests on what is happening on Pennsylvania 
Avenue, and recognizing full well that at that hearing, they 
promised us a prospectus which we have not seen on the FBI. The 
appropriators have taken action so far to deny the funding of 
the FBI, which, additional funding, which as you know, we 
provided significant funding for the suburban locations, and 
have raised questions that they are not going to go forward 
unless they understand the plan and that can meet certain 
minimum conditions.
    I think the appropriators are doing the right thing, Mr. 
Chairman. I won't disagree with what the appropriators are 
doing. But it is our committee's jurisdiction to approve the 
prospectus, to make sure that we are in agreement as to what is 
being done. We are talking about multi-billion dollar 
renovation here, or construction. Multi-billion dollars. Could 
be the largest single construction that any of us will ever 
vote on in the U.S. Senate.
    So I had suggested to the Chairman that I think if we don't 
get something soon from the GSA that our committee has a 
responsibility to act, that we should consider a resolution 
spelling out what we desire to happen. That has been done in 
the past. I know we just got the answers, I have not seen those 
answers, but you just informed us we just got the answers that 
were long overdue.
    But it is this committee's jurisdiction. I think all of us 
want the FBI to have the facilities that they need and want the 
taxpayers to get the value for the funds that are being 
invested. That is our responsibility. I would just urge us to 
take the responsibilities of our committee in a timely way, so 
that we can influence decisions that are being made.
    Senator Barrasso. Thank you. Senator Whitehouse?
    Senator Whitehouse. Thank you, Chairman. I just want to say 
a few words about Ms. Neumayr and Mr. Fleming, who we will be 
voting on today. I am going to be voting against Ms. Neumayr 
because a number of us have a letter in to her, asking for 
clarification on some of the, I thought, very unfortunate 
answers she gave in her QFR responses. I don't know if she 
actually wrote those, or if there is some kind of White House 
politburo that writes those for her and she is stuck with it. 
But I need to push a little harder to see that her answers in 
writing are consistent with what I felt her answers were, both 
in our private meeting and here at the committee.
    So I want to get to yes, but I feel if I vote yes on her 
now, the likelihood of getting serious answers to the letter 
diminish. So I will be voting no in the hopes of getting to 
yes.
    With respect to Mr. Fleming, like the Ranking Member, he 
has given very positive assurances about how importantly he 
views EDA, how importantly he views its programs, how 
importantly he views the coastal work that EDA needs to do, how 
fairly he says he will treat climate change, sea level rise 
projects, not be categorial or ideological about not taking 
them seriously. So I'm a close vote on Mr. Fleming, given his 
past record of voting to eliminate the agency he would now 
lead.
    But I would note that we had Representative Bridenstein go 
over to NASA and he had been a real antagonist to both science 
and to NASA. As soon as he got over there, he suddenly was 
actually a bit, he had had some revelations, including that 
climate change is actually real and that humans and our 
emissions are causing it and all that. I think he probably 
discovered that NASA is a scientist's organization and if you 
are going to say things that are scientifically preposterous, 
it is very hard to lead.
    So I am hoping for a similar series of epiphanies from Mr. 
Fleming. Again, I reserve the right to vote no on the floor. 
But I intend to vote yes for him today. And I appreciate the 
Chair allowing me to make those comments about what are very 
close votes.
    Senator Barrasso. Thank you, Senator Whitehouse.
    Senator Van Hollen.
    Senator Van Hollen. Thank you, Mr. Chairman. I just wanted 
to second the comments of my friend and colleague from 
Maryland, Senator Cardin, with respect to the FBI building. I 
want to thank you and the Ranking Member for having what I 
thought was a very informative hearing a number of months back, 
where I think we got a lot of revealing information.
    I think folks here know that for over 10 years there had 
been a plan, as Senator Cardin said, to move the FBI to a more 
secure location. Just as we have sort of campus settings for 
the CIA, for the NSA, for security reasons, there had been a 
plan to find a more secure location for the FBI. GAO reports 
backed up the need to find a more secure location. And then all 
of a sudden we had a change in plan.
    And I gather we just got the QFRs from that hearing. I have 
not had a chance to look them over. But I do hope this 
committee will take a close look at that original GAO report 
and the original intent behind Congress, where there had been 
numerous appropriations actually provided for the more secure 
location.
    I think as you know, Mr. Chairman, we had some testimony 
that day where the witnesses at least on the record said that 
there had not been sort of close contact between GSA and FBI 
and either the President or senior White House officials. After 
the hearing was over, they had to send you a correction for the 
record. As Senator Cardin said, the reports yesterday just 
confirm the intimate involvement of the White House in this 
decision, a decision I think we all agree should be based on 
the merits, not on whim.
    So I want to thank you and Senator Cardin for raising that.
    Senator Barrasso. Yes, Senator Markley.
    Senator Markley. Thank you, Mr. Chairman, very much. I 
would just like to make a couple of brief comments on two of 
the nominees before us today. First, on Peter Wright, he is 
Dow's self-proclaimed dioxin lawyer, to take charge of the 
Superfund program at the Environmental Protection Agency. It 
would be a clear violation of the public trust. Mr. Wright has 
openly questioned the science behind dangerous toxics that 
cause cancer and other illnesses. At the EPA, he would face 
dozens of conflicts of interest overseeing the work of the 
chemical industry.
    Mr. Wright is the classic fox guarding the hen house. Mr. 
Wright should not be confirmed by the Senate to lead these 
programs at the EPA.
    Second, I would like to voice my concern over the 
nomination of Mary Neumayr to lead the Council on Environmental 
Quality. Her focus on the streamlining, or as I call it, the 
steamrolling, of the National Environmental Policy Act is 
deeply unfortunate. We need a head of the CEQ that will advise 
the President on climate science and how to better include 
environmental review and infrastructure, not someone who is 
advising on how to dismantle environmental review.
    I urge this committee not to confirm Ms. Neumayr. Thank 
you, Mr. Chairman.
    Senator Barrasso. Thank you. We are waiting for one final 
member to arrive. Does anyone else have any comments they would 
like to make regarding any of these nominations?
    If not, let me move to some of the parts of this committee 
that do not require roll call votes, and we would like to move 
to the votes on the items on today's agenda. The Ranking Member 
and I have agreed to vote on the two courthouse naming bills 
and the six GSA resolutions en bloc by voice vote. But members 
may choose to have their votes recorded for a specific item in 
that en bloc after the voice vote.
    The Ranking Member and I have agreed to bring up the four 
nominees for separate votes. And the Ranking Member has 
requested that each of these nominees receive a roll call vote.
    So to begin, I would like to call up H.R. 5772, a bill 
naming a Federal courthouse in Amarillo, Texas; S. 3021, a bill 
naming a Federal courthouse in Minneapolis, Minnesota; and six 
General Service Services Administration resolutions, en bloc.
    I move to approve and report H.R. 5772 and S. 3021 
favorably to the Senate, and approve six GSA Resolutions en 
bloc. Is there a second?
    Senator Carper. I second.
    Senator Barrasso. All those in favor, please say aye.
    [Chorus of ayes.]
    Senator Barrasso. All those opposed, please say no.
    [No audible response.]
    Senator Barrasso. In the opinion of the Chair, the ayes 
have it. We have approved H.R. 5772 and S. 3021, which will be 
reported favorably to the Senate. We also have approved six GSA 
resolutions.
    Waiting for one more member to attend, and we will hold off 
a few seconds until that member arrives. He is in en route and 
should be here momentarily.
    [Pause.]
    Senator Barrasso. Next I would like to call up Presidential 
Nomination 2136, Mary Bridget Neumayr, of Virginia, to be a 
member of the Council on Environmental Quality. I move to 
approve and report the nomination favorably to the Senate. Is 
there a second?
    Senator Inhofe. Second.
    Senator Barrasso. The Clerk will please call the roll.
    The Clerk. Mr. Booker.
    Senator Booker. No.
    The Clerk. Mr. Boozman.
    Senator Boozman. Yes.
    The Clerk. Mrs. Capito.
    Senator Capito. Yes.
    The Clerk. Mr. Cardin.
    Senator Cardin. No.
    The Clerk. Mr. Carper.
    Senator Carper. No.
    The Clerk. Mrs. Duckworth.
    Senator Carper. No by proxy.
    The Clerk. Mrs. Ernst.
    Senator Ernst. Yes.
    The Clerk. Mrs. Fischer.
    Senator Fischer. Yes.
    The Clerk. Mrs. Gillibrand.
    Senator Gillibrand. No.
    The Clerk. Mr. Inhofe.
    Senator Inhofe. Aye.
    The Clerk. Mr. Markey.
    Senator Markey. No.
    The Clerk. Mr. Merkley.
    Senator Merkley. No.
    The Clerk. Mr. Moran.
    Senator Moran. Aye.
    The Clerk. Mr. Rounds.
    Senator Rounds. Aye.
    The Clerk. Mr. Sanders.
    Senator Carper. No by proxy.
    The Clerk. Mr. Shelby.
    Senator Shelby. Aye.
    The Clerk. Mr. Sullivan.
    Senator Sullivan. Aye.
    The Clerk. Mr. Van Hollen.
    Senator Van Hollen. No.
    The Clerk. Mr. Whitehouse.
    Senator Whitehouse. No.
    The Clerk. Mr. Wicker.
    Senator Wicker. Aye.
    The Clerk. Mr. Chairman.
    Senator Barrasso. Aye. The Clerk will report.
    The Clerk. Mr. Chairman, the yeas are 11, the nays are 10.
    Senator Barrasso. We have approved the nomination of Ms. 
Neumayr to be a member of the Council on Environmental Quality, 
which will be reported to the full Senate for approval.
    I would now like to call up the nomination of Presidential 
Nomination 1766, William Charles McIntosh of Michigan, to be 
Assistant Administrator for the Office of International and 
Tribal Affairs of the Environmental Protection Agency. I move 
to approve and report the nomination favorably to the Senate. 
Is there a second?
    Senator Inhofe. Second.
    Senator Barrasso. The Clerk will call the roll.
    The Clerk. Mr. Booker.
    Senator Booker. No.
    The Clerk. Mr. Boozman.
    Senator Boozman. Yes.
    The Clerk. Mrs. Capito.
    Senator Capito. Yes.
    The Clerk. Mr. Cardin.
    Senator Cardin. No.
    The Clerk. Mr. Carper.
    Senator Carper. No.
    The Clerk. Mrs. Duckworth.
    Senator Carper. No by proxy.
    The Clerk. Mrs. Ernst.
    Senator Ernst. Yes.
    The Clerk. Mrs. Fischer.
    Senator Fischer. Yes.
    The Clerk. Mrs. Gillibrand.
    Senator Gillibrand. No.
    The Clerk. Mr. Inhofe.
    Senator Inhofe. Aye.
    The Clerk. Mr. Markey.
    Senator Markey. No.
    The Clerk. Mr. Merkley.
    Senator Merkley. No.
    The Clerk. Mr. Moran.
    Senator Moran. Aye.
    The Clerk. Mr. Rounds.
    Senator Rounds. Aye.
    The Clerk. Mr. Sanders.
    Senator Carper. No by proxy.
    The Clerk. Mr. Shelby.
    Senator Shelby. Aye.
    The Clerk. Mr. Sullivan.
    Senator Sullivan. Aye.
    The Clerk. Mr. Van Hollen.
    Senator Van Hollen. No.
    The Clerk. Mr. Whitehouse.
    Senator Whitehouse. No.
    The Clerk. Mr. Wicker.
    Senator Wicker. Aye.
    The Clerk. Mr. Chairman.
    Senator Barrasso. Aye. The Clerk will report.
    The Clerk. Mr. Chairman, the yeas are 11, the nays are 10.
    Senator Barrasso. We have approved the nomination of Mr. 
McIntosh to be an Assistant Administrator of the Environmental 
Protection Agency, which will be reported to the full Senate 
for approval.
    I would now like to call up Presidential nomination 1681, 
Peter Wright of Michigan to be Assistant Administrator for the 
Office of Land and Emergency Management of the Environmental 
Protection Agency. I move to approve and report the nomination 
favorably to the Senate. Is there a second?
    Senator Inhofe. Second.
    Senator Barrasso. The Clerk will call the roll.
    The Clerk. Mr. Booker.
    Senator Booker. No.
    The Clerk. Mr. Boozman.
    Senator Boozman. Yes.
    The Clerk. Mrs. Capito.
    Senator Capito. Yes.
    The Clerk. Mr. Cardin.
    Senator Cardin. No.
    The Clerk. Mr. Carper.
    Senator Carper. No.
    The Clerk. Mrs. Duckworth.
    Senator Carper. No by proxy.
    The Clerk. Mrs. Ernst.
    Senator Ernst. Yes.
    The Clerk. Mrs. Fischer.
    Senator Fischer. Aye.
    The Clerk. Mrs. Gillibrand.
    Senator Gillibrand. No.
    The Clerk. Mr. Inhofe.
    Senator Inhofe. Aye.
    The Clerk. Mr. Markey.
    Senator Markey. No.
    The Clerk. Mr. Merkley.
    Senator Merkley. No.
    The Clerk. Mr. Moran.
    Senator Moran. Aye.
    The Clerk. Mr. Rounds.
    Senator Rounds. Aye.
    The Clerk. Mr. Sanders.
    Senator Carper. No by proxy.
    The Clerk. Mr. Shelby.
    Senator Shelby. Aye.
    The Clerk. Mr. Sullivan.
    Senator Sullivan. Aye.
    The Clerk. Mr. Van Hollen.
    Senator Van Hollen. No.
    The Clerk. Mr. Whitehouse.
    Senator Whitehouse. No.
    The Clerk. Mr. Wicker.
    Senator Wicker. Aye.
    The Clerk. Mr. Chairman.
    Senator Barrasso. Aye. The Clerk will report.
    The Clerk. Mr. Chairman, the yeas are 11, the nays are 10.
    Senator Barrasso. We have approved the nomination of Mr. 
Wright to be an Assistant Administrator of the Environmental 
Protection Agency, which will be reported to the full Senate 
for approval.
    Now I would like to call up the nomination, Presidential 
Nomination 2171, John Fleming of Louisiana, to be Assistant 
Secretary of Commerce for economic development. I move to 
approve and report the nomination favorably to the Senate. Is 
there a second?
    Senator Inhofe. Second.
    Senator Barrasso. The Clerk will call the roll.
    The Clerk. Mr. Booker.
    Senator Booker. No.
    The Clerk. Mr. Boozman.
    Senator Boozman. Yes.
    The Clerk. Mrs. Capito.
    Senator Capito. Yes.
    The Clerk. Mr. Cardin.
    Senator Cardin. Aye.
    The Clerk. Mr. Carper.
    Senator Carper. Aye.
    The Clerk. Mrs. Duckworth.
    Senator Carper. Aye by proxy.
    The Clerk. Mrs. Ernst.
    Senator Ernst. Yes.
    The Clerk. Mrs. Fischer.
    Senator Fischer. Yes.
    The Clerk. Mrs. Gillibrand.
    Senator Gillibrand. No.
    The Clerk. Mr. Inhofe.
    Senator Inhofe. Aye.
    The Clerk. Mr. Markey.
    Senator Markey. No.
    The Clerk. Mr. Merkley.
    Senator Merkley. No.
    The Clerk. Mr. Moran.
    Senator Moran. Aye.
    The Clerk. Mr. Rounds.
    Senator Rounds. Aye.
    The Clerk. Mr. Sanders.
    Senator Carper. No by proxy.
    The Clerk. Mr. Shelby.
    Senator Shelby. Aye.
    The Clerk. Mr. Sullivan.
    Senator Sullivan. Aye.
    The Clerk. Mr. Van Hollen.
    Senator Van Hollen. No.
    The Clerk. Mr. Whitehouse.
    Senator Whitehouse. Aye.
    The Clerk. Mr. Wicker.
    Senator Wicker. Aye.
    The Clerk. Mr. Chairman.
    Senator Barrasso. Aye. The Clerk will report.
    The Clerk. Mr. Chairman, the yeas are 15, the nays are 6.
    Senator Barrasso. We have approved the nomination of Dr. 
John Fleming to be an Assistant Secretary of Commerce, which 
will be reported to the full Senate for approval.
    The voting part of our business meeting is concluded.
    Senator Carper. Mr. Chairman, could I just make a brief 
comment?
    Senator Barrasso. Senator Carper.
    Senator Carper. There is a pattern here in terms of our 
votes. I think a number of us, not all, but a number of folks 
on our side voted no on several of these nominations. Because 
what we heard here and what we heard in our private meetings 
with these nominees did not line up with what we read in the 
QFRs.
    We need some clarification and we look forward to getting 
that clarification. If we get it, then I think we will be able 
to move forward. If we don't, it will make things more 
difficult. My hope is we will get it.
    Senator Barrasso. Thank you so much, Senator Carper.
    Now I ask unanimous consent that the staff have authority 
to make technical and conforming changes to each of the matters 
approved today. With that, our business meeting is concluded.
    [Whereupon, at 10:21 a.m., the meeting was concluded.]
    [Additional material submitted for the record follows:]
    [GRAPHICS NOT AVAILABLE IN TIFF FORMAT]

                                 [all]
</pre><script data-cfasync="false" src="/cdn-cgi/scripts/5c5dd728/cloudflare-static/email-decode.min.js"></script></body></html>
